Audit Report




OIG-11-006
SAFETY AND SOUNDNESS: Failed Bank Review of Key West
Bank
October 25, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              October 25, 2010


             OIG-11-006

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Key West Bank


             This memorandum presents the results of our review of the failure of Key West
             Bank. Key West Bank opened in February 1999 and operated one branch in Key
             West, Florida. The thrift was a wholly owned subsidiary of Key West Bancgroup,
             Inc., a unitary thrift holding company. The Office of Thrift Supervision (OTS) closed
             Key West Bank and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on March 26, 2010. As of December 31, 2009, the thrift had $88 million
             in total assets. FDIC estimated that the loss to the Deposit Insurance Fund is $23.1
             million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Key West Bank that was limited to (1) ascertaining the
             grounds identified by OTS for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
             examination, and (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-006
Page 2

Causes of Key West Bank’s Failure
The primary cause of Key West Bank’s failure was its excessive concentrations in
higher-risk adjustable-rate mortgages, including a significant number of interest only
loans, which were funded primarily with brokered deposits and borrowings from
the Federal Home Loan Bank of Atlanta. These conditions were exacerbated by the
severe downturn in real estate values in its primary lending area, Florida’s Key
West region. By 2009, the bank’s liquidity was deficient when substantial amounts
of brokered deposits were scheduled to mature. In addition, the Federal Home Loan
Bank of Atlanta froze the bank’s credit availability, and there were no other funding
sources to meet emergency cash needs. As the bank’s asset quality deteriorated,
problem assets and the loan loss provision significantly increased. In turn, the
provision for loan losses contributed to a net loss which significantly diminished
earnings and capital, and when combined with the lack of additional funding
sources, ultimately led to Key West Bank’s closure by OTS.


Conclusion
Based on our review of the causes of Key West Bank’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Key West Bank’s failure
summarized in this memorandum are consistent with the information contained in
its reports of examinations and documents in support of the grounds for
receivership. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Jai
Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-006

       Attachment 1
Management Response
                                                   OIG-11-006

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
